<html>
<title> - OVERSIGHT OF THE FEDERAL BUREAU OF INVESTIGATION</title>
<body><pre>[Senate Hearing 112-173]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-173
 
            OVERSIGHT OF THE FEDERAL BUREAU OF INVESTIGATION

=======================================================================



                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 30, 2011

                               __________

                          Serial No. J-112-12

                               __________

         Printed for the use of the Committee on the Judiciary





                  U.S. GOVERNMENT PRINTING OFFICE
71-557                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
CHUCK SCHUMER, New York              JON KYL, Arizona
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
AL FRANKEN, Minnesota                MICHAEL S. LEE, Utah
CHRISTOPHER A. COONS, Delaware       TOM COBURN, Oklahoma
RICHARD BLUMENTHAL, Connecticut
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......     3
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................    81

                                WITNESS

Mueller, Robert S., III, Director, Federal Bureau of 
  Investigation, U.S. Department of Justice, Washington, DC......     5

                         QUESTIONS AND ANSWERS

Responses of Robert S. Mueller, III to questions submitted by 
  Senators Klobuchar, Franken, Grassley, Hatch, Kyl and Sessions.    34

                       SUBMISSIONS FOR THE RECORD

Mueller, Robert S., III, Director, Federal Bureau of 
  Investigation, U.S. Department of Justice, Washington, DC, 
  statement......................................................    83


            OVERSIGHT OF THE FEDERAL BUREAU OF INVESTIGATION

                              ----------                              


                       WEDNESDAY, MARCH 30, 2011

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Kohl, Schumer, Durbin, Klobuchar, 
Franken, Coons, Blumenthal, Grassley, Sessions, Kyl, and 
Graham.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Today the Judiciary Committee will hear 
from Director Robert Mueller.
    This fall, the Director will complete his 10-year term 
overseeing the FBI. He and I were talking out back earlier, and 
I do not know when I have seen 10 years go by so quickly, and I 
am sure the Director feels the same way. He took over just days 
before the attacks of September 11th. And I told him a 
reference from Elizabethan England, which I will not repeat 
here, in the hearing room at that time, but it did seem like 
everything--it was almost as though they were trying to give 
the Director his full 10-year term in about the first 10 days, 
with all that went on. He has overseen a major transformation 
of the Bureau. While the FBI continues to perform all the 
functions of a Federal law enforcement agency, it has greatly 
increased its role in ensuring our National security. There 
have been growing pains and false starts, but Director Mueller 
has managed this transformation of a large and well-established 
agency with great professionalism and focus, and he will leave 
at the end of his tenure a better Bureau than he had when he 
came in.
    The Director has aggressively pursued both law enforcement 
and national security objectives while maintaining a strong 
commitment to the values and freedoms we hold most dear as 
Americans. In commemorating the 100th anniversary of the FBI 
several years ago--and I remember sitting there listening to 
the Director as he said this--he said:
    ''It is not enough to stop the terrorist--we must stop him 
while maintaining his civil liberties. It is not enough to 
catch the criminal--we must catch him while respecting his 
civil rights. It is not enough to prevent foreign countries 
from stealing our secrets--we must prevent that from happening 
while still upholding the rule of law. The rule of law, civil 
liberties, and civil rights--these are not our burdens. They 
are what make us better. And they are what have made us better 
for the past 100 years.''
    I was in that audience when he said that. I think it is 
fair to say the audience went across the political spectrum, 
and his statement was greeted with long and sustained applause.
    I have tried to advance these same objectives with 
carefully calibrated criminal justice legislation like the 
Justice For All Act and national security legislation like the 
USA PATRIOT Act reauthorization proposal that recently passed 
through this Committee. But I am gratified that the Director 
shares my commitment to working to keep all Americans safe 
while preserving the values of all Americans.
    I appreciate that the FBI has shown signs recently of real 
progress on issues vital to this Committee and to the country. 
National security and counterterrorism are central to the FBI's 
mission. But it has been heartening to see this steady stream 
of important arrests of those who would do this country harm.
    Earlier this month, the FBI arrested Kevin Harpham for 
planning to bomb a march in honor of Martin Luther King Day in 
Spokane, Washington. Mr. Harpham reportedly had ties to white 
supremacist groups, and the plot he is accused of planning came 
dangerously close to succeeding. Had it succeeded with the bomb 
that he had, the results could have been devastating to a large 
crowd of people, and I commend the FBI for making this arrest, 
which shows the continuing threat posed by domestic terrorism 
and makes very clear that no one ethnic group has a monopoly on 
terror.
    Now, in the last Congress, we made great strides toward 
more effective fraud prevention and enforcement. I worked hard 
with Senator Grassley and others to craft and pass the Fraud 
Enforcement and Recovery Act, the most expansive anti-fraud 
legislation in more than a decade. It adds resources and 
statutory tools for effective prevention, detection, and 
enforcement of mortgage fraud and financial fraud. We have 
worked hard to ensure that both the health care reform 
legislation and Wall Street reform legislation passed last year 
had important new tools for cracking down on fraud. Senator 
Grassley and I are hard at work now on new legislation to 
provide greater support for aggressive enforcement of our fraud 
laws.
    I am pleased to see that the FBI has been taking advantage 
of this heightened support for fraud enforcement. They have 
greatly increased the number of agents investigating fraud. 
They have led to more fraud arrests, but also--and the 
taxpayers should be happy about this--they have led to greater 
fraud recoveries. And I am glad that the FBI has maintained its 
historic focus on combating corruption. I would hope that they 
would continue to crack down on the kinds of fraud that 
contributed so greatly to our current financial crisis and on 
corruption that undermines Americans' faith in their democracy.
    Last, I have been heartened to see that the FBI's 
statistics continue to show reductions in violent crime 
nationwide despite the painful recession, and I commend the FBI 
for their work in combating violent crime. I hope that Congress 
will continue to provide the urgently needed assistance to 
State and local law enforcement, which has been vital to 
keeping crime down throughout the country.
    Then, of course, areas of major concern include the FBI's 
continuing struggles with modernizing its technology and 
information-sharing systems. We will have vigorous oversight, 
and I know that today's hearing will shed light on these areas.
    I thank Director Mueller for returning to the Committee, 
for his responsiveness to our oversight efforts, but especially 
for his personal example and impressive leadership over the 
past decade in returning the FBI to its best traditions. If you 
get to know the Director and his family, you can see he carries 
the same values to work, and I commend him for that.
    I also would say I commend him for the times when difficult 
things were happening, he has called me at home or on the road 
or in Vermont, and he actually traveled to Vermont with me to 
talk about it. That meant a great deal and means a great deal. 
And, of course, I thank the hard-working men and women of the 
FBI. And, again, without going into our personal conversations, 
earlier the Director and I were talking about how fortunate we 
are to have the kind of men and women who have put their lives 
on hold to uphold what is needed in our country.
    Senator Grassley.

STATEMENT OF HON. CHUCK GRASSLEY, A U.S. SENATOR FROM THE STATE 
                            OF IOWA

    Senator Grassley. Thank you. Mr. Chairman, oversight of the 
FBI is probably one of the most important oversight hearings 
that you have, and so I thank you.
    I would take a moment to publicly thank you, Director 
Mueller, for your service to America, and I do that just in 
case this might be the last time as Director of the FBI you are 
before this Committee. But I will bet you after you are in 
private life you will be asked to testify on various things 
before Congress in that capacity because of your experience.
    While we have had our share of disagreements, Director 
Mueller, I have always appreciated your candor and your 
willingness to work with us to get answers even if we do not 
always agree with what those answers are. For instance, I know 
there is a lot of agreement between you and me on the need to 
extend the PATRIOT Act provisions that are set to expire in 
May. The three expiring provisions of the PATRIOT Act are very 
important tools used by law enforcement and the intelligence 
community to protect us from threats to our National security. 
They are vital to our ability to investigate, identify, track, 
and deter terrorists.
    It was recently revealed that the FBI successfully utilized 
a Section 215 order as part of the investigation that prevented 
a terrorist attack planned by a Saudi national in Texas. In 
that case it was revealed that the individual in question 
purchased bomb-making materials such as 3 gallons of sulfuric 
acid, clocks, chemistry sets, and a gas mask from online 
retailers Amazon.com and eBay. This case is the latest of many 
examples of successes of the PATRIOT Act provisions and your 
successful use of that.
    Given the numerous threats we face and the fact that the 
three expiring provisions have not been found to have been 
abused, the Senate should work to reauthorize the expiring 
authority without amendment.
    Aside from the critical national security authority we need 
to reauthorize, I want to today eventually ask Director Mueller 
about a recent report that was issued by the Homeland Security 
and Governmental Affairs Committee released in February 
entitled, ``A Ticking Bomb'' that examined the tragic shootings 
at Fort Hood that occurred November 2009. That report 
highlighted a number of problems at both the Department of 
Defense and the FBI and found ``systematic failures in the 
Government's handling of the Hasan case.''
    I was troubled to hear allegations contained in the report, 
including that an analyst on a Joint Terrorism Task Force was 
not provided full access to a key FBI data base simply because 
he was from a non-FBI agency. I want to hear from the Director 
whether he agreed with some of these key findings, what is 
being done to correct any deficiencies in the way terrorism 
cases are reviewed, and whether information sharing has been 
improved.
    I will also ask the Director some questions about FBI 
employee personnel matters. I have long been concerned about 
the plight of whistleblowers within the FBI. Director Mueller 
has made it a priority to instruct all employees of the FBI 
that retaliation against whistleblowers will not be tolerated, 
but, unfortunately, that directive has not always been followed 
by agents in the field, and I find one case particularly 
troubling.
    In 2007, the Department of Justice Inspector General issued 
a memorandum finding that a 30-year non-agent employee of the 
FBI, Robert Kobus, was retaliated against for protected 
whistleblowing. The Inspector General found that, ``The FBI 
management in the New York Field Division improperly moved 
Kobus from the position of a senior administrative support 
manager to several non-supervisory positions.'' One of those 
positions included being demoted to OSHA safety officer. The 
retaliation was blatant and included moving his office to a 
cubicle on a vacant 24th floor of the FBI building. The 
Inspector General ultimately concluded that the decision to 
move him was in retaliation for disclosing wrongdoing to a 
special agent in charge of the field office, in this case an 
attendance fraud by FBI agents. This is exactly the type of 
retaliation against whistleblowers that should never occur.
    So I am working on a request that I shared with Chairman 
Leahy--you may not know about it, but I have given it to your 
staff--hoping that we can work together on this issue. But I 
would also request that the Government Accountability Office 
conduct a top-to-bottom review of the Department of Justice's 
process for dealing with FBI whistleblowers. Delays like the 
one in the Kobus case send a clear signal to potential 
whistleblowers that reporting wrongdoing will only end up in an 
expensive bureaucratic mess.
    Another area of concern that I have relates to the FBI 
employee misconduct. In January of this year, the internal FBI 
Office of Professional Responsibility documents were leaked to 
the press. Those documents contained a number of shocking 
allegations about misconduct committed by employees of the FBI. 
An example: The document detailed FBI agents who were dismissed 
because they were arrested for drunk driving, engaged in 
improper relationships with FBI informants, leaked classified 
information to reporters, sought reimbursement for expenditures 
they never made, and in one instance brought foreign nationals 
back into the FBI's space after hours. I want to know more 
about these penalties, how they were determined. I think it is 
necessary and important to know in light of the fact that the 
Inspector General found in the May 2009 report that there is a 
perception among FBI employees that there is a double standard 
for discipline among higher-ranking and lower-ranking 
employees.
    Director Mueller, over the past 8 months, I have been 
investigating systemic problems at the Philadelphia Public 
Housing Authority--outlandish salaries, sexual harassment 
settlements, and excessive legal billings, just to name a few 
of the problems, and I want to express my appreciation 
regarding the FBI's ongoing investigation and recent seizure of 
expensive luggage purchased as gifts by the Philadelphia Public 
Housing Authority, and I hope the FBI follows through 
vigorously on any criminal violations that may have occurred at 
the Philadelphia Public Housing Authority.
    Finally, I want to ask the Director about the fiscal year 
2012 budget request that was submitted to Congress. I continue 
to have concerns with the FBI's agency-wide case management 
system known as Sentinel. I want to know when this is going to 
end, how much more taxpayers' money will be necessary, and how 
the FBI plans to maintain the older case management data base 
as part of the new system. After a decade of upgrading the 
system, not another dime of taxpayers' money should be awarded 
until the FBI can prove the system will work and will be done 
on time.
    That is a lot to cover. I thank you for your patience as I 
cover those items.
    Chairman Leahy. Thank you very much.
    Director Mueller, please go ahead, sir.

  STATEMENT OF HON. ROBERT S. MUELLER, III, DIRECTOR, FEDERAL 
     BUREAU OF INVESTIGATION, U.S. DEPARTMENT OF JUSTICE, 
                         WASHINGTON, DC

    Mr. Mueller. Thank you and good morning, Chairman Leahy and 
Ranking Member Grassley and other members of the Committee who 
are here today. I appreciate the opportunity to appear before 
the Committee.
    I will start by saying that the FBI faces today 
unprecedented and increasingly complex challenges. We must 
identify and stop terrorists before they launch attacks against 
our citizens. We must protect our Government, businesses, and 
critical infrastructure from espionage and from the potentially 
devastating impact of cyber-based attacks. We must root out 
public corruption, fight white-collar and organized crime, stop 
child predators, and protect civil rights.
    We must also ensure we are building a structure that will 
carry the FBI into the future by continuing to enhance our 
intelligence capabilities, improve our business practices and 
training, and develop the next generation of Bureau leaders. 
And we must do all of this while respecting the authority given 
to us under the Constitution, upholding civil liberties, and 
the rule of law.
    The challenges of carrying out this mission have never been 
greater as the FBI has never faced a more complex threat 
environment than it does today. Over the past year, the FBI has 
faced an extraordinary range of threats from terrorism, 
espionage, cyber attacks, and traditional crime. A few 
examples.
    Last October, there were the attempted bombings on air 
cargo flights bound for the United States from Yemen, directed 
by al Qaeda in the Arabian Peninsula. Last May, there was the 
attempted car bombing in Times Square, aided by TTP in 
Pakistan. These attempted attacks demonstrate how al Qaeda and 
its affiliates still have the intent to strike inside the 
United States.
    In addition, there were a number of serious terror plots by 
lone offenders here in the United States. Their targets ranged 
from the Martin Luther King Day march in Spokane, Washington, 
as mentioned by the Chairman, to a Christmas tree lighting 
ceremony in Portland, Oregon; to subway stations in the 
Washington, D.C., Metro system. And while the motives and 
methods for these plots were varied, they were among the most 
difficult threats to combat.
    The espionage threat persisted as well. Last summer, there 
were the arrests of ten Russian spies, known as ``illegals,'' 
who secretly blended into American society in order to 
clandestinely gather information for Russia. And we continued 
to make significant arrests for economic espionage as foreign 
interests seek to steal controlled technologies.
    The cyber intrusion at Google last year highlighted the 
potential danger from a sophisticated Internet attack. And 
along with countless other cyber incidents, these attacks 
threaten to undermine the integrity of the Internet and to 
victimize the businesses and persons who rely on it.
    In our criminal investigations, we continue to uncover 
billion-dollar corporate and mortgage frauds that weaken the 
financial system and victimize investors, homeowners, and 
ultimately taxpayers. We also exposed health care scams 
involving false billings and fake treatments that endangered 
patients and fleeced Government health care programs.
    The extreme violence across our southwest border continued 
to impact the United States. As we saw the murders last March 
of American consulate workers in Juarez, Mexico, and the 
shooting last month of two U.S. Immigration and Customs 
Enforcement agents in Mexico. And throughout the year, there 
were numerous corruption cases that undermined the public trust 
and countless violent gang cases that continued to take 
innocent lives and endanger our communities.
    As these examples demonstrate, the FBI's mission to protect 
the American people has never been broader, and the demands on 
the FBI have never been greater. And to carry out these 
responsibilities, we do need Congress' continued support more 
than ever.
    Let me briefly discuss two areas where Congress can help 
the FBI with its mission. First, we do encourage Congress to 
reauthorize the three FISA tools that are due to expire later 
this spring; the roving intercept authority is necessary for 
our national security mission and provides us with tools 
similar to what we use in criminal cases already and have used 
for a number of years.
    The business records authority permits us to obtain key 
documents and data in our national security cases, including in 
our most serious terrorism matters. And the lone-wolf provision 
is important to combat the growing threat from lone offenders 
and homegrown radicalization. These authorities, all of which 
are conducted with full court review and approval, are critical 
to our national security.
    Second, the FBI and other Government agencies are now 
facing a growing gap in our ability to execute court-approved 
intercepts of certain modern communications technologies. We 
call this the problem of going dark. With the acceleration of 
new Internet-based technologies, we are increasingly unable to 
collect valuable evidence in cases ranging from child 
exploitation and pornography to organized crime and drug 
trafficking, as well as to terrorism and espionage.
    Let me emphasize at the outset that collecting this 
evidence has been approved by a court, but because the laws 
have not kept pace with the changes in technology, often we 
cannot obtain the information responsive to the court orders 
from the communications carrier. And we look forward to working 
with this Committee and Congress on the legislative fixes that 
may be necessary to close this gap and preserve our ability to 
protect all Americans.
    Last, let me say a few words about the impact of the 
continuing budget resolutions on the FBI and on our workforce.
    The support from this Committee and Congress has been an 
important part of transforming the FBI into the national 
security agency it is today. But for our transformation to be 
complete, we must continue to hire, train, and develop our 
cadre of agents, analysts, and staff to meet the complex 
threats we face now and in the future.
    Under the current levels in the continuing resolution, the 
FBI will have to absorb over $200 million in cuts, and without 
any change, the current CR will leave us with over 1,100 vacant 
positions by the end of the year. Put simply, these cuts would 
undermine our efforts to continue to transform the Bureau and 
undermine our efforts to carry out our mission.
    I appreciate the opportunity to review the FBI's work in 
responding to the far-reaching threats we face today before you 
today. I also want to thank the Committee for your continued 
support, the support over the years that I have held this 
position, and not only support for me but most particularly for 
your support of the men and women of the FBI who do the work of 
this great institution.
    Thank you and I would be happy to answer any questions, Mr. 
Chairman.
    [The prepared statement of Mr. Mueller appears as a 
submission for the record.]
    Chairman Leahy. Well, thank you, Director, and again, I 
reiterate my personal feelings and appreciation for what you 
have done and for the openness you have shown when I have had 
questions, and others on the Committee. All Senators I think 
have found you to be very accessible.
    Earlier this month--and I mentioned this in my opening 
statement about the FBI arresting Kevin Harpham in connection 
with a plot to bomb a parade in honor of Martin Luther King Day 
in Spokane, Washington. And what I have read in the press is 
that the bomb was very sophisticated. The plot almost 
succeeded. With the large number of people around there, at 
looking at some of the press photographs, if the bomb had gone 
off, the results would have been horrible.
    Now, he reportedly had ties to white supremacist groups, 
and I mention this only because I do not want us to lose sight 
of the fact that domestic terrorism may not be as visible as 
international terrorism, but also the threat to us just as 
Timothy McVeigh in Oklahoma City and others.
    What is the threat posed by domestic terrorism? How would 
you just generally--not this particular case, but generally, 
how do you see the threat of domestic terrorism?
    Mr. Mueller. Well, we have not lost sight, even with 
September 11th, of the devastation that was wreaked by McVeigh 
in Oklahoma City in 1995, and we have, certainly before then 
but most particularly since then, had domestic terrorism almost 
as important an issue as the international terrorism that we 
have seen over the years. Whether it be white supremacists, 
militia extremists, sovereign citizen extremists, we continue 
to undertake investigations with adequate--where we have the 
predication to make certain that these groups do not present 
terrorist threats.
    I will tell you that most concerning is, yes, the groups 
themselves in some ways, but most concerning are the lone 
wolves, those persons who may have had some loose affiliation 
with one of these groups but may have been rejected by the 
group as being too extreme or individually found the group was 
not extreme enough and then on their own undertake an attack. 
And so I would say the possibility of activity from a lone wolf 
is the thing that we are most concerned about----
    Chairman Leahy. Those are the people that would be the 
hardest to track, I would take it.
    Mr. Mueller. That is correct. They do not communicate with 
any others. It is really difficult to put into place the 
capabilities of alerting us when one of those individuals looks 
like they want to go operational.
    Chairman Leahy. The Unabomber, people like that.
    Mr. Mueller. Exactly.
    Chairman Leahy. It is very hard. I agree with you, and I 
raise this just because I would hate to have everybody lose 
sight of the fact in a Nation of 300 million people and the 
size of our country that we do face questions of domestic 
terrorism, and we have to, not just at the FBI level but State 
and local and others, keep track of that, too.
    Last week, the press released an FBI memorandum providing 
guidance to the field on the interrogation of terrorist 
suspects arrested in the United States. Now, you could have 
people playing on all sides of the debate about how to treat 
terrorism suspects. As far as I could tell, the memo 
essentially reiterates current law. When I first became a 
prosecutor, Miranda came down. You had Escobido and then 
Miranda. I remember working with the police within my 
jurisdiction as to how you adapt to it. You have in your 
regular training programs for any new FBI agent how to do it. 
This memo reiterates the requirements of the Miranda decision, 
and it restates the narrow parameters of the public safety 
exception, and there has always been--contrary to some of the 
plain rhetoric, there has always been a public safety 
exception, and it makes no changes to the requirements 
governing presentment of a suspect in court. If the agents 
believe the suspect has valuable intelligence, they can 
continue the interrogation even beyond the recognized 
parameters of the public safety exception and understanding the 
possible exclusion in court.
    I think you were wise to do it this way and not do it 
through trying to make a congressional change, and I will get 
into that in a moment. But have these procedures been effective 
in the past? You have had this in place now for a while. Have 
they been effective? Do you think they will be effective in the 
future?
    Mr. Mueller. I do think they have been effective and will 
continue to be effective in the future. We are in some sense in 
uncharted but guided territory in the sense that the Quarles 
decision issued by the Supreme Court that establishes the 
public safety exception was applicable to a discrete set of 
facts relating to a robbery, and what we have to anticipate is 
how that public safety exception translates to the area of 
terrorism. And our guidance errs on the side of obtaining that 
information we need to prevent the next terrorist attack, but 
within what we think would be the parameters of the public 
safety exception if and when the Supreme Court has an 
opportunity to look at how expansive that particular exception 
is.
    Chairman Leahy. And you have to assume they will. I recall 
being in a long meeting with the President, and I believe 
Attorney General Holder joined the meeting partway through. We 
were talking about whether we would make changes--try to make 
changes legislatively to Miranda. I argued that you cannot 
really do that. The Dickerson case, the Supreme Court said that 
Miranda is a constitutional decision, and a legislative act 
could not overrule that. But as a constitutional decision, it 
has been your experience, I take it, that the Supreme Court has 
carved out certain areas that show practicality in there, for 
want of a better word.
    Mr. Mueller. Well, I think we have to wait and see what the 
Supreme Court does. In the meantime, our principal 
responsibility when it comes to counterterrorism is stopping 
the next terrorist attack, and consequently, you look at each 
case as an opportunity to gather that intelligence and 
information that will stop the next terrorist attack. And that 
is foremost on our minds, but doing that within the construct 
that has been given to us by the Congress and the Supreme 
Court.
    Chairman Leahy. And this memorandum gives some flexibility 
in----
    Mr. Mueller. It does.
    Chairman Leahy. Thank you. I mentioned your tenure began 
just before the September 11th attacks and will wrap up just 
before the tenth anniversary of that. We have seen a big 
transformation. Now, your successor, whoever he or she may be, 
is going to sit down with you, if they are at all wise--
certainly I would recommend it--to talk about what has happened 
in the last 10 years and certainly the views of the next 10 
years. When you hand that leadership over, what would you say 
is the most--what would you tell them is the most effective way 
to manage the extraordinary amount of data that is gathered by 
the FBI? It is like a tsunami, the data that comes in there. 
How do you do that and identify threats and hold our values? 
What kind of advice would you give? That will be my last 
question.
    Mr. Mueller. Well, generally, my advice would be to rely on 
the people in the FBI. I started a week before September 11th. 
I was new. I did not know really how the FBI operated other 
than looking at it from afar as an Assistant United States 
Attorney, and the remarkable thing is how that organization 
pulled together to undertake the responsibilities of responding 
to September 11th. And so regardless of what one does as the 
Director, it is the FBI as an organization and an institution 
that has the strength to carry us.
    With regard to the tsunami of information that you talk 
about, one of the lessons we have learned since September 11th 
is there has been a profusion of databases, different databases 
given different authorities, and what we have needed over a 
period of time, and not only us but others in the intelligence 
community, are the capabilities for federated searches that 
enable you to pull out the pieces of information from disparate 
databases and put them together to prevent the next terrorist 
attack.
    But as much as you can do this digitally, as much as you 
can do this with databases, it always is the human element, the 
personal element that ultimately is successful. And developing 
the persons who are capable of sifting through this data with 
the help of algorithms and the like is as important as 
developing the digital capability to sort through it. And so 
continuing to build the analytical cadre, continuing to build 
the type of agents and analysts and professional staff that no 
one understands, the technological area, but no one understands 
the human element of it is as important as anything else, and 
that is what we have tried to do, build up that capability 
since September 11th, and I would expect that my successor 
would continue on that path.
    Chairman Leahy. Thank you very, very much.
    Senator Grassley.
    Senator Grassley. Director Mueller, I am going to start out 
with a question or two that probably you touched on in your 
testimony, but I think it is important that we get answers to 
specific questions. It is in regard to the PATRIOT Act. And you 
know the three provisions that are expiring. Do you agree that 
these three provisions should be made permanent?
    Mr. Mueller. Yes, sir.
    Senator Grassley. Have these three tools been useful to the 
FBI to prevent terrorist attacks on our country?
    Mr. Mueller. They have. Let me, if I can, briefly mention 
the business records provision has been used over 380 times. 
You alluded to an instance where it was used recently. It is 
absolutely essential that we have the ability to gather these 
records through that provision. Whether it be for identifying 
intelligence officers from other countries, these records 
enable us to get hotel records, travel records and the like, 
and without that capability, it would be difficult to develop 
the cases and the investigations in that arena as well as the 
counterterrorism arena without this provision.
    The roving wiretap provision has been used more than 190 
times. It is limited in the sense that we have to show that the 
individual for whom we wish this authority is trying to avoid 
surveillance, and, again, it is reviewed by the court before it 
is issued. And as I did mention in my testimony, we have had 
this capability on the criminal side of the house for any 
number of years. It has been very helpful in national security 
and important.
    The one we have not yet used is the lone-wolf provision, 
but I still believe that that is important. We have come close 
to using it in several of our cases. The one thing I would 
point out there is that the only time it is to be used is on a 
non-U.S. citizen and with court approval. And, consequently, 
while we have not used that provision, with the profusion of 
lone-wolf cases domestically and, indeed, some internationally, 
my expectation is we will be using this in the future, and I 
believe that it is important that it be reauthorized.
    Senator Grassley. I think that your answer shows that if 
these provisions were not reauthorized or if they were 
substantially weakened by including new requirements, it would 
be detrimental to the agents in the field. Would that be a 
correct assumption?
    Mr. Mueller. Yes, sir.
    Senator Grassley. And kind of from your point of view 
whether any of these three provisions have been subject to any 
negative reports of finding abuse.
    Mr. Mueller. I am not aware of any.
    Senator Grassley. OK. Let me go to three other tools which 
are not set to expire and are not part of the needed 
reauthorization. These are the Foreign Intelligence 
Surveillance Act pen register and trap-and-trace orders, 
national security letters, and delayed notice search warrants. 
The FBI regularly uses pen register/trap-and-trace authority in 
both national security and criminal areas. Is that a correct 
assumption on my part?
    Mr. Mueller. Yes, sir.
    Senator Grassley. Under current law these authorities have 
the same legal standard, relevance. That is correct, isn't it?
    Mr. Mueller. Yes, sir.
    Senator Grassley. Do you believe increasing the legal 
burden on these investigative tools is necessary?
    Mr. Mueller. Speaking generally, I would say no, I believe 
we are at a point in time where there has been the appropriate 
balance between, on the one hand, the necessity for addressing 
the terrorist threat and threat from other criminal elements in 
the United States, and yet on the other hand, the protection of 
privacy, civil liberties. And I think that balance has been 
worked out satisfactorily over the years since September 11th.
    Senator Grassley. National security letters are an 
essential part of building blocks of national security 
investigations. They have never had a sunset in law. Do you 
think that they need one now?
    Mr. Mueller. I do not.
    Senator Grassley. Delayed notice search warrants are 
primarily a criminal tool, not a national security tool. Is 
that right?
    Mr. Mueller. That is correct.
    Senator Grassley. Has there been any criticism of their use 
that you know of requiring us to change the delay from 30 days 
to 7 days?
    Mr. Mueller. Not that I am aware of.
    Senator Grassley. Is there any advantage to decreasing the 
delay period?
    Mr. Mueller. Did you say decreasing the delay period?
    Senator Grassley. Yes.
    Mr. Mueller. I think the suggestion was decreasing it 
from----
    Senator Grassley. 30 to 7.
    Mr. Mueller. That is something we would have to look at the 
impact there, but I am not aware of any abuse or any activity 
that directs or mandates such a change. Let me put it that way.
    Senator Grassley. At least as of now then, I can conclude 
that you would not be able to say that you support a change at 
this point.
    Mr. Mueller. I would have to look at the legislation and, 
quite obviously, the last word is the Justice Department terms 
and views letter.
    Senator Grassley. Okay. I would like to go to the 
Electronic Communications Protection Act. There is a coalition 
called the Digital Due Process Coalition, business and interest 
groups supporting a probable cause standard for obtaining all 
electronic communications regardless of its age, the location, 
or storage facilities or the providers of access to 
information. Do you support raising the legal standard for 
obtaining electronic communications to a probable cause 
determination?
    Mr. Mueller. I do not, and that would be tremendously 
problematic in our capability of undertaking and successfully 
undertaking investigations to prevent terrorist attacks. We use 
the information, not the content of communications but the 
existence, in fact, of communications to make the case for 
probable cause that would enable us to utilize the more 
intrusive investigative powers that have been given to us by 
Congress. If that standard was to change, it would severely 
inhibit our ability to make those probable cause showings to 
the court in order to continue the investigation as is 
warranted.
    Senator Grassley. Let me ask you specifically along that 
line if you think the legal standard to obtain information 
through a pen register or trap-and-trace order should be 
increased to a probable cause or 2703(d) standard.
    Mr. Mueller. No, for the same reasons that I stated before.
    Senator Grassley. OK. Do you agree that a change like this 
would be unworkable and burdensome? I think you have answered 
that, that it would be burdensome.
    Mr. Mueller. I would have to look at the particular 
provision and look more closely at it to be able to answer that 
particular question.
    Senator Grassley. I have more questions, but I think my 
time is up. I am going to leave for a few minutes and go to 
Agriculture, but I will come back.
    Chairman Leahy. Thank you. Thank you very much.
    I yield to Senator Kohl.
    Senator Kohl. Thank you very much, Mr. Chairman.
    Director Mueller, I remember 10 years ago--it was like 
yesterday--when you came on board, and as with all of us, time 
goes by very, very quickly. But I want to express my deep, deep 
admiration and respect for you as a person and as an individual 
with the capabilities that you have and have demonstrated over 
the past 10 years. You have been a crucial asset to our 
country, and I along with, I think, everybody who has been 
connected with you over these past 10 years looks at your 
tenure in terms of how much it has done for our country and how 
much we owe you by way of appreciation.
    Mr. Mueller. Thank you, Senator.
    Senator Kohl. I want to speak just a bit about what 
happened at Fort Hood. As you know, the Senate Homeland 
Security Committee released a report critical of the FBI. They 
said that the FBI conducted only a cursory investigation into 
evidence that existed that the shooter was frequently involved 
in talking with an al Qaeda-affiliated terrorist overseas. The 
report also said that the FBI failed to give the Pentagon full 
access to an FBI data base that likely would have sparked an 
in-depth inquiry that would most likely have avoided what 
occurred at Fort Hood.
    Going forward, which is really all we need to be concerned 
about at this time, what can you tell us about new procedures 
that are in place that will head off another Fort Hood in the 
future?
    Mr. Mueller. I will say at the outset that this is one of--
the pieces of information on the individuals responsible for 
Fort Hood were found in one of the thousands of cases we handle 
day in and day out. But what we found as a result of Hasan's 
incident, his attack on that day, is there were gaps that we 
had to fill.
    Immediately afterwards, we looked at our procedures. We 
found that we could do a much better job at information sharing 
with DOD and, consequently, today elements of the Department of 
Defense serve on our National Joint Terrorism Task Force. They 
are in many of our Joint Terrorism Task Forces around the 
country, but most particularly we have a formalized process 
where we sit down and go through all the cases, whether a DOD 
case or our cases that may touch on DOD, so that we have before 
both entities a full review of those cases that may impact DOD.
    Second, we have put into place technological improvements 
relating to the capabilities of a data base to pull together 
past e-mails and future ones as they come in so that it does 
not require an individualized search. So putting together a 
technological improvement to enhance our capabilities.
    Last, we--not last, actually. Two more things. Third, what 
we had done is assure that we have not just one office that is 
reviewing, say, communications traffic but have a redundancy of 
review at headquarters as well to make certain that we do not 
miss something.
    And, last, you alluded to an analyst's inability to either 
access or knowledge of a particular data base, and we underwent 
an extensive training initiative for all persons serving on 
Joint Terrorism Task Forces in the wake of what happened at 
Fort Hood to assure that not only the persons have access to 
the databases, but were knowledgeable and knew when and where 
to utilize those particular databases.
    So I do believe that we have addressed the issues that came 
to our attention immediately after the Fort Hood incident.
    Senator Kohl. Director Mueller, the ability of American 
companies to out-innovate and out-compete the rest of the world 
is more important today than ever. In 1996, I worked to pass 
the Economic Espionage Act. This is a law that makes it a 
Federal crime to steal trade secrets. And yet the FBI estimates 
that U.S. companies continue to lose billions of dollars each 
year when criminals do steal their trade secrets.
    I am currently reviewing the Economic Espionage Act to see 
what improvements are needed to better protect American 
companies. As a first step in this process, I am introducing 
legislation to increase maximum sentences for economic 
espionage from 15 to 20 years and the Sentencing Guideline 
range.
    Do you support these penalty increases? Will you work with 
me as we consider additional updates to the law? And do you 
have any suggestions as to what we should be doing?
    Mr. Mueller. I would have to, quite obviously, consult with 
Justice in terms of the response, but it seems to me that I 
would think we would look quite favorably on the suggestions of 
enhanced penalties in this arena. And, of course, we would work 
with you and your staff in terms of looking at what other areas 
might be improved through legislation.
    Senator Kohl. Maybe you can respond to this. In 1996, we 
considered including a Federal civil private right of action as 
a tool for companies to combat and deter theft of trade 
secrets. At the time we decided to forgo this and rely on State 
trade secret laws. Other criminal laws like the Computer Fraud 
and Abuse Act contain companion Federal civil remedies for 
victims.
    What are your views as to how prosecutions and 
investigations could be improved if a private right of action 
was available? Might you support a change of this sort?
    Mr. Mueller. I think we--and by ``we,'' I mean ourselves 
and the Justice Department--would have to look and see what is 
in the statute. I might be leery at the outset of including a 
private right of action, maybe because I would be somewhat 
concerned about overlap and conflicts in terms of 
investigations, and it is something that I would think that we 
would have to look at very closely to determine what adverse 
impact there might be on our ability as the Government actor to 
pursue these cases if there was a private right of action. I am 
not saying there should not be. I am just saying that is 
something that we ought to look at closely before the Justice 
Department gives a position on whatever legislation that is 
proposed.
    Senator Kohl. Finally, what advice would you give your 
successor in avoiding pitfalls that you experienced during your 
tenure?
    Mr. Mueller. Whew. I would say rely on the great people in 
the FBI, just a remarkable organization, remarkable grouping of 
people.
    I think I would also say, when I have gotten in trouble, it 
is because I have not asked the hard questions and I have been 
satisfied with answers that were fine on the surface, but there 
were areas that I should have delved deeper and found out the 
answers myself. I could kick myself in some of those arenas.
    One of the other things I would say is that it is important 
for us in the organization to understand what is necessary to 
protect the American public to grow and adjust to the new 
threats that are coming so much faster than they did 10, 15, or 
20 years ago and be flexible and agile to address those 
threats, and the organization has to do what it needs to do for 
the American public as opposed to what we may enjoy or like 
doing as prosecutors or as agents. And the Bureau has always 
done that, and it is history, and we are going to have to do 
it, and do it swifter and faster in the future.
    Senator Kohl. Thank you very much.
    Senator Graham.
    Senator Graham. Thank you, sir.
    I would like to acknowledge your service for probably one 
of the most challenging times in American history. I really 
appreciate what you have tried to do for our country in your 
whole force.
    Mr. Mueller. Thank you, sir.
    Senator Graham. You mentioned, I think, in your testimony 
about Border Patrol agents being killed. What is your 
assessment of the violence in Mexico? Are the border areas more 
dangerous? And where do you see this going in Mexico?
    Mr. Mueller. I think anybody looking at what has happened 
in the last several years along the border but also inside 
Mexico in terms of the increasing homicides, the breakdown of, 
to the extent that there was any cartel--I do not want to say 
``justice,'' but restraint--has long since been lost with the 
increase in homicides despite the efforts and intent of the 
Calderon administration from the outset to address it.
    From our perspective, the concern is the violence coming 
north of the border. From our perspective, we have seen and had 
several years ago an uptick in kidnappings of individuals who 
may live in the United States but have businesses or family be 
kidnapped in Mexico and the ransom sought from persons in the 
United States. We put together task forces to address that, and 
that has been reduced somewhat.
    We have a priority of looking at corruption along the 
border, and we have a number of agents looking at border 
corruption. We have had a number of cases of border corruption 
that we have successfully investigated.
    We have put together fusion squads or individuals who are 
familiar with corruption, familiar with the narcotics 
trafficking, white-collar crime, money laundering and the like 
in the squads that we are using--``hybrid squads'' we call 
them--to address the activities on the border. And, finally, we 
have put together an intelligence capability down in El Paso 
that brings in the intelligence from each of our offices as 
well as from our legal attache in Mexico City and headquarters. 
And we integrate that with the other players that are working 
on the border.
    Senator Graham. Would you said it would be a fair 
observation that securing our border is probably more important 
than ever, that criminal activity is growing and that terrorism 
threats are growing, and that we should really look at securing 
the border as a national security imperative?
    Mr. Mueller. I think securing the border has always been a 
national security imperative, yes, sir.
    Senator Graham. But it seems to be even more so from your 
testimony.
    Now, you mentioned something in your testimony that you 
should maybe ask hard questions, and I think that is probably 
good advice for us all. When it comes to Miranda warnings, is 
it the FBI's view that Miranda warnings are required for 
interviews that involve intelligence gathering for national 
security purposes?
    Mr. Mueller. If there is no intent to utilize the results 
of those interviews in a courtroom and the purpose was 
gathering intelligence, yes, it would be--and that happens all 
the time, particularly overseas.
    Senator Graham. Is it fair to say that homegrown terrorism 
is on the rise?
    Mr. Mueller. Yes.
    Senator Graham. Is it fair to say that we need to get our 
laws in shape to deal with a new threat, which is people 
attacking us who may be American citizens themselves who are 
here legally?
    Mr. Mueller. Yes.
    Senator Graham. So wouldn't it be fair to say that we 
should as a Nation, the Congress and the administration, try to 
find a solution that would withstand court scrutiny to deal 
with the fact that when we are facing this threat, providing a 
lawyer and reading someone their rights when they may involve 
an act of terrorism is something that may be counterproductive 
at the time?
    Mr. Mueller. I am not certain I could go that far. I would 
say we are bound by what the Supreme Court has issued in terms 
of----
    Senator Graham. Well, do you think Congress should be 
involved in helping create a solution to this problem?
    Mr. Mueller. It would be nice if Congress could, but we 
have got the Supreme Court as the ultimate arbiter in terms of 
the application of Miranda to the admissibility of statements, 
as I am sure----
    Senator Graham. I totally understand what you are saying, 
but it is my view that Miranda warnings are not required if the 
purpose of the interrogation is to gather intelligence about 
existing threats or future threats, because when you fight a 
war, you do not read people Miranda rights on the battlefield. 
Where is the battlefield? Is the United States part of the 
battlefield?
    Mr. Mueller. One can speculate. I know there are persons 
who say everything is a battlefield now. I would stay----
    Senator Graham. Well, what do you think?
    Mr. Mueller [continuing]. Away from speculating on the 
battlefield. I know where you are going, but I will stay away 
from the definition of battlefield.
    Senator Graham. In all fairness to you, I think it is 
pretty important to know where the battlefield is. To me, the 
battlefield is here at home. We have caught people who are 
trying to blow us up that are connected with people in 
Pakistan, allegedly. So, Mr. Director, I think home is the 
battlefield, and we need to craft solutions in light of this 
growing threat, and I look forward to working--and I would urge 
the administration to come to Congress to see if we can work 
together.
    But under your policy guidance, this memorandum, how long 
can you hold someone without reading them their Miranda rights? 
If you catch someone here in America, an American citizen whom 
you suspect of being involved with al Qaeda or some foreign 
entity, a terrorist group, how long can you hold them without 
reading them their rights? How many questions can you ask them? 
And when do you have to present them to court?
    Mr. Mueller. Well, generally, within 24 to 48 hours one has 
to make the presentment to court, at which point in time they 
will be read their Miranda warnings. It depends on where you 
might be. It may be longer if you are not that close to a 
magistrate.
    Senator Graham. Well, let us continue to ask the hard 
questions. So under the policy, under the problem with 
presentment to court, you are talking about 24 or 48 hours. Is 
that enough time to gather intelligence?
    Mr. Mueller. It may well be. In certain cases we have----
    Senator Graham. Could it well not be?
    Mr. Mueller. It could not be.
    Senator Graham. Yes, I mean, you might actually want to 
call foreign intelligence services and see what do they know 
about this guy. You would certainly want to call the CIA. You 
would want to call the DOD, and you would want to make a good 
assessment.
    I think the honest answer is that presentment and Miranda 
warnings need to be looked at anew in light of the domestic--in 
light of homegrown terrorism, and that is just my view. And I 
want to invite the administration to be a good partner on this, 
but I just feel like we are less safe with the current policy 
because the questions I have asked about how long you can hold 
them, 24 to 48 hours, without a presentment problem is probably 
not a good solution to what I think is a growing problem.
    The last thing I want to ask you about is your budget. We 
are having a real debate up here about, you know, cutting 
Government, and God knows it needs to be reduced. But one thing 
about Government from my point of view is the first thing you 
want to do is protect your citizens. You are telling me that 
H.R. 1, if implemented the way it is today, would cost 1,100 
job slots?
    Mr. Mueller. We would not be able to fill 1,100 slots by 
September in order to meet the budget constrictions.
    Senator Graham. So when we are deciding what is the right 
number to pick--you are losing $200 million. Is that correct?
    Mr. Mueller. Yes, we are.
    Senator Graham. And the plus-up you are asking in 2012, is 
that really----
    Mr. Mueller. Depending on what happens in 2011----
    Senator Graham. Right.
    Mr. Mueller.--will dictate to a certain extent the plus-ups 
in 2012. And what we are struggling for is to get what we did 
not get in 2011 for 2012.
    Senator Graham. Well, you know we are deeply in debt, 
right?
    Mr. Mueller. Absolutely. Absolutely.
    Senator Graham. I thought you might agree with me there. 
And you have looked at this budget from a perspective that the 
Nation is deeply in debt?
    Mr. Mueller. Yes.
    Senator Graham. And you are telling us, the Congress, that 
due to the threats that are multiplying exponentially you need 
this force to protect America?
    Mr. Mueller. Yes.
    Senator Graham. Thank you very much for your testimony.
    Chairman Leahy. Senator Schumer.
    Senator Schumer. Thank you, Mr. Chairman, and I want to 
thank you, Director, for your service. You started a week 
before 9/11, and it has been quite a decade. But thank you. You 
have done an excellent job.
    Mr. Mueller. Thank you.
    Senator Schumer. I would like to discuss first an issue 
that affects a small upstate community, Newburgh, New York. As 
you know, 2 years ago Newburgh saw gang activity and a violent 
crime spike. There were shootouts in the streets, repeated bank 
robberies, numerous homicides. At the time you and Attorney 
General Holder assured me the FBI and other Federal partners 
would work closely with local law enforcement and significantly 
increase Federal resources to counter gangs operating in the 
area, and you have done a good job on that. Last spring, this 
work led to an FBI investigation, a multi-agency sweep 
involving some 500 local, State, and Federal law enforcement 
agents and the arrest of 70 gang members in the city of 
Newburgh. It is not a large city, so that was very significant.
    Early last month there was another sweep, ten more gang 
suspects were arrested, and there have been reports now that 
the FBI is considering moving its Hudson Valley resident agency 
to Newburgh. I want to personally express my strong support of 
such a proposal.
    When I toured the streets of Newburgh with the local police 
department and your field agents, residents thanked the 
officers and agents and saw hope. As the community works to 
rebuild, I know that housing the FBI within the community will 
serve as an important gang deterrent, an important community 
resource.
    So can you commit to consider Newburgh closely as the 
location for the FBI resident agency location?
    Mr. Mueller. I think I can make that commitment. I know the 
decision is in process and that the activities in or about 
Newburgh would be a factor, amongst other factors as well. But 
certainly we would consider the activity that you have adverted 
to over the last year or two in terms of where that resident 
agency should be located.
    Senator Schumer. OK. And if you are having any space 
problems, we will find it for you. OK? But it is very important 
to move there.
    Mr. Mueller. I understand.
    Senator Schumer. So I hope you will do everything you can 
to do that.
    Mr. Mueller. Sure.
    Senator Schumer. OK. The second question deals with the 
background checks pilot. In 2003, Congress passed the Criminal 
Background Check Pilot Program as part of the PROTECT Act. The 
legislation was introduced by Senator Hatch, cosponsored by a 
number of Senators on the Committee. I was one of them. This 
pilot program was established to determine the feasibility of a 
nationwide fingerprint-based background check system for 
volunteers of youth-serving organizations like the Boys and 
Girls Club, the National Mentoring Partnership. Thanks to the 
great work of the FBI and the National Center for Missing and 
Exploited Children, which processed background check requests, 
some 90,000 records have been requested and used since this 
pilot program's inception. Six percent of the records included 
criminal histories of concern, including serious offenses, 
sexual abuse of minors, assault, child cruelty, even murder.
    So, Director Mueller, has the FBI experienced any problems 
in running these checks for these youth-serving organizations? 
For instance, does the FBI believe the costs associated with 
this pilot program to be overly burdensome or the work overly 
complex?
    Mr. Mueller. My understanding is that there has been no 
problems with the processing of these requests through NCMEC. 
NCMEC is a tremendous organization. So we have not seen any 
problems, and I do believe that the charges that we--what we 
charge for is an appropriate charge, and my understanding is 
there have been no problems in terms of receiving the monies 
for those checks.
    Senator Schumer. OK, because as you know, NCMEC recently 
announced it would no longer operate the pilot program, leaving 
a number of youth service organizations without access. So 
given the Bureau's experience with the pilot, do you agree such 
a permanent program could be helpful in the continued 
protection of our children? Are you willing to work with 
whatever organization takes NCMEC's place?
    Mr. Mueller. We would take directly from those youth 
service organizations the requests for doing the background 
checks.
    Senator Schumer. Good.
    Mr. Mueller. And, consequently, I probably cannot say to 
what extent that going back to that practice would be 
detrimental to those organizations or others.
    Senator Schumer. But you are willing to work and make sure 
that this gap is filled again because it is a worthwhile----
    Mr. Mueller. If there is indeed a gap, yes, we are willing 
to work with NCMEC or youth service organizations in order to 
make certain that the processes undertaken----
    Senator Schumer. Great. OK. Finally, guns, gun checks. The 
President himself has noted information included in our gun 
check system, NICS, which is supposed to prevent guns from 
being sold to the wrong people, is ``often incomplete and 
inadequate.'' The FBI relies on State governments to supply 
many of the records about people who are not allowed to possess 
guns, and there are lots of examples of this: people who are 
involuntarily committed to a mental institution by a State 
court, someone on probation for a State crime fails a drug 
test. And yet we are finding that many States are not 
complying.
    So you have any idea why so many States are not doing 
anything to help you enforce the Federal law in this regard, 
why we are not getting the information that we should to be on 
this list? Which, by the way, everyone supports. This is not 
about who should own a gun. This is once there is a consensus 
that say a felon or somebody who is adjudicated mentally ill 
not get a gun, that they be on the list so they will not be 
sold a gun.
    Mr. Mueller. We do everything we can to encourage the 
States to provide us the information that would be present in 
NICS that would prevent the sale of those particular guns. I do 
not think there is one particular factor that contributes to 
the inability or unwillingness of a State to provide that 
information. It may well be it costs additional time and money 
to ferret out that information and put into place a process to 
assure it goes into NICS. All we can do in the Bureau is 
encourage that the States provide us that information.
    Senator Schumer. Well, you could just send us things we 
might be able to do now. As you know, I have been working on 
legislation on this for a long time. Representative McCarthy 
and I passed legislation about the mentally infirm, adjudicated 
mentally infirm, after Virginia Tech. Recently, Jared Loughner, 
the Tucson gunman, was rejected by the army due to his admitted 
drug use. Under the bill that McCarthy and I have put in, under 
Federal law, it seems to me such information could have been 
sent to NICS under existing law.
    So given that the President has stated that the NICS 
Improvement Act has not been properly implemented and 
Loughner's ability to purchase a firearm even after admitting 
to the Federal Government--this is when he was applying to the 
armed forces--about his drug abuse, will you agree to examine 
the implementation of this legislation to ensure it is serving 
its intended purpose, for instance, having the armed forces 
report to NICS in these types of instances like Loughner?
    Mr. Mueller. As I say, in every one of these instances we 
encourage, but we have no ability to do much more than 
encourage the responsiveness.
    Senator Schumer. OK. And can you provide me with updated 
numbers in the next few days on how many people have been 
identified as drug abuses by each Federal agency?
    Mr. Mueller. I think we can.
    Senator Schumer. Great.
    [The information appears as a submission for the record.]
    Senator Schumer. Thank you, Mr. Chairman. My time has 
expired.
    Chairman Leahy. Thank you, Senator Schumer.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Director Mueller, thank you for your service. You came to 
this office with unparalleled experience, the proven judgment, 
and integrity to lead the agency in an effective way. I believe 
you have done that. I salute you for it. The country has been 
lucky to have you there. I have worked with the FBI many, many 
years and have the greatest respect for the men and women who 
serve in that fabulous agency, truly I think it is fair to say 
the greatest law enforcement agency in the world. Would you 
agree?
    Mr. Mueller. I cannot dispute that.
    Senator Sessions. I did not think you would, not perfect--
--
    Chairman Leahy. We would have some problems if you did, 
Director.
    [Laughter.]
    Senator Sessions. It may not be perfect, and none of us 
are, but it is a great institution with fabulous men and women 
who serve every day, long hours and doing the things that are 
necessary to help protect us from crime and terrorist 
activities.
    I would like to follow up a little on Senator Graham's 
questions about the Miranda warnings and the nature of the 
struggle that we are in with terrorism today. I remain totally 
baffled by this administration and, frankly, your perception 
that those who are dedicated to the destruction of this 
country, who enter our country with the design to attack and 
kill Americans somehow should be presumptively treated as 
criminals and should be provided Miranda warnings and other 
legal protections that we provide American citizens, but the 
kind of things that have never been provided to enemy 
combatants on the battlefield.
    First of all, I want to just make clear that I do not think 
it is speculative about where the battlefield is. I think the 
battlefield is where the enemy is attacking us. And we have 
seen that they are attacking us in our homeland.
    So I guess my first question is: How do you feel about the 
fundamental question of the apprehension of someone directly 
connected to al Qaeda in the United States bent on attacking 
the United States? Do you believe that should be treated as an 
act of war or a crime?
    Mr. Mueller. I am going to leave that up to others to 
decide. I will tell you that we as an organization, if the 
responsibility given to us under the law is to make the arrest 
and there is an intent and a decision made by the President, 
whichever President it may be, whether it be Bush before or 
Obama now, that the person go through the Federal district 
courts and the procedures are mandated that we go through in 
order to have testimony admissible in a courtroom.
    Now, a decision can be made by the executive that they not 
go through the Federal criminal process of the United States, 
which is a decision to be made by the executive at whatever 
point in time, and that----
    Senator Sessions. Well, I would agree----
    Mr. Mueller.--different procedures kick in. But if we are 
given the mandate to do the arrest and take them to trial and 
convict them under our courts, then there is a pathway that has 
been decided by the executive that we must follow.
    Senator Sessions. Have you made a recommendation that that 
is the way, the presumptive way----
    Mr. Mueller. I have not. No, sir.
    Senator Sessions. Have you opposed that?
    Mr. Mueller. That is an issue that is left to the 
President, and----
    Senator Sessions. Decided at a level above you?
    Mr. Mueller. Way above me, yes, sir.
    Senator Sessions. Well, I do not know, you being a long-
time appointment, so you can speak candidly about what is 
important to protecting the safety of the United States of 
America. And you are not just expected to come here and rubber-
stamp what decision is made in the White House. But according 
to the document you put out on custodial interrogations, you 
say that the FBI policy, you will continue to adhere to the FBI 
policy regarding the use of Miranda warnings for custodial 
interrogations of operational terrorists. And you define 
operational terrorists as an arrestee who is reasonably 
believed to be either a high-level member of an international 
terrorist group or an operative. It goes on to describe that.
    So let us take the situation that Senator Graham was asking 
you about, and I think it is very important. If this is an 
enemy combatant, and I believe many of these terrorists are, 
associated with al Qaeda or organizations committed to the 
destruction of the United States, then they should be seen as a 
potential source of intelligence information that could help us 
identify who else may be in this organization, who else is 
threatening the United States. And isn't it possible that you 
can obtain that kind of information through effective 
interrogation techniques?
    Mr. Mueller. Well, I agree with you, it is absolutely 
essential in our first--when we have individuals who are 
involved in terrorist attacks, our first objective is to obtain 
the intelligence. And what our guidance is to our persons is 
that should be your objective----
    Senator Sessions. Well, that is----
    Mr. Mueller.--give advantage----
    Senator Sessions.--your objective, but you indicate that 
there is some potential window of public safety exception which 
is not clear in any case law that I am aware of, not really 
clear what this public safety is. As you indicated, it cannot 
exceed 24 or 48 hours when they have to be brought before a 
Federal court if you are treating them as a criminal, right?
    Mr. Mueller. Well, if they are going to be treated in the 
courts of the United States----
    Senator Sessions. How many hours----
    Mr. Mueller.--the requirement----
    Senator Sessions.--has a court ever approved----
    Chairman Leahy. Let him finish.
    Senator Sessions. Well, my time is about up, Mr. Chairman. 
It is an important issue.
    Chairman Leahy. He has answered these questions several 
times already, but I would like to let him answer----
    Senator Sessions. I would like to get a square answer out 
of it, too.
    Mr. Mueller. And I am happy to answer.
    Senator Sessions. Well, first of all----
    Mr. Mueller. Let me just say----
    Senator Sessions. Let me just say to you----
    Mr. Mueller.--it is important to----
    Senator Sessions.--this, and I will let you answer further. 
I believe that an individual arrested carrying a bomb, about to 
board an airplane in the United States directly connected to al 
Qaeda should be treated as an enemy combatant, does not need to 
be taken to court in 24 or 48 hours and given a lawyer, does 
not need to be given Miranda rights, may need to be subjected 
to weeks of interrogation utilizing the best information and 
techniques we have to find out who else in this country may be 
prepared to kill thousands of American citizens. And for you to 
say--and not acknowledge that Miranda warnings can be 
counterproductive to that is inexplicable to me. So I would be 
glad to hear your comments.
    Mr. Mueller. Well, I have not exactly said that, Senator. 
What I have said is that if a person is arrested--may I finish? 
If a person is arrested in the United States under our laws, we 
are guided by the statutes and by the Supreme Court in terms of 
what we can do. We have expanded and identified what we 
anticipate we should get when a terrorist has been arrested in 
the United States in terms of intelligence, and that is the 
first thing, without Miranda warnings, we do. But ultimately if 
that individual is to be prosecuted in the United States, there 
may well come a point in time where Miranda warnings are 
warranted.
    If the decision is made that the person is not going to go 
through our courts, that is a decision that is made by the 
executive and we quite obviously would follow that. But that 
person would not be in our custody or going through what we do 
day in and day out under the criminal justice system of the 
United States.
    Senator Sessions. How long do you wait before you give a 
Miranda warning under an exception?
    Mr. Mueller. Under the exception? It is indeterminate. And 
we have had a number of occasions where we have put off both 
the giving of Miranda warnings as well as presentment for a 
number of days where we have got the person and the person 
agrees that they want to cooperate----
    Senator Sessions. Well, they agree----
    Mr. Mueller.--and provide intelligence for a period of 
time.
    Senator Sessions. They agree.
    Chairman Leahy. Thank you.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    Director Mueller, I would like to associate myself with all 
the other Senators who have commended you for your service. 
Thank you so much.
    I would also like to commend you for aggressively 
investigating mortgage fraud and predatory lending cases. 
Recently I became Chair of a new Subcommittee on Privacy, 
Technology, and the Law, and one thing I learned as I have been 
preparing for the Subcommittee's work is that at the height of 
the subprime lending crisis in the summer of 2007, the No. 1 
buyer of Internet advertising across all industries was a 
subprime lender. This was a company called Low Rate Source. 
Another top-five Internet advertiser in this period may sound 
more familiar--Countrywide Financial.
    And, Mr. Chairman, without objection, I would like to add 
the Nielsen net ratings reports to the record.
    Chairman Leahy. Without objection.
    [The information referred to appears as a submission for 
the record.]
    Senator Franken. My point here is that subprime mortgages 
did not assign themselves, and one of the key ways that 
Countrywide Financial and other subprime lenders identified 
their targets was by gathering data about those customers 
online to see who might be a good mark and targeting them 
online, often without the customers' having any idea that this 
was happening. Is this a trend that the FBI has seen during its 
investigations of subprime lenders?
    Mr. Mueller. I am not familiar myself with that. I would 
have to get back to you on it. But we can do that.
    Senator Franken. Well, Mr. Director, it seems to me this is 
an area in which the FBI would be well served by working with 
the Federal Trade Commission. Can you tell me what you are 
currently doing to work with the FTC on this issue?
    Mr. Mueller. Again, I would have to get back to you on it.
    Senator Franken. Thank you.
    Mr. Mueller. I know we have a number of task forces and 
working groups with them, but I would have to get back to you 
with the specifics.
    Senator Franken. I appreciate that.
    [The information referred to appears as a submission for 
the record.]
    Senator Franken. A while back, I saw Representative Peter 
King, Chairman of the Homeland Security Committee in the House, 
say on TV pretty categorically that there was no cooperation 
from the Somali community or from community leadership in 
Minnesota after a very small number of members of that 
community went to Somalia to train with Al-Shabaab. My 
experience is that no one is more upset about what happened 
than the Twin Cities Somali community itself, and my 
understanding from talking to law enforcement is that there has 
been real cooperation from the community in Minnesota. Is that 
your understanding?
    Mr. Mueller. Yes, sir. I think that the Somali community in 
Minneapolis was taken aback by the number of young men who had 
traveled to Somalia to work with Al-Shabaab, and that that 
community, understanding what had happened to that community 
and the threat to the young men in that community, became very 
cooperative in terms of not wanting that to happen again.
    Senator Franken. Yes, that was my understanding. He said 
quite categorically the opposite was true, and I take umbrage 
on behalf of the Somali community in the Twin Cities whom I 
represent.
    Now, it seems to me that it would make sense to have a 
Somali face on some of our counterterrorism efforts in the 
Somali community in Minnesota. Are you actively working to 
encourage and recruit members of key communities like the 
Somali community to actually become field agents?
    Mr. Mueller. Yes, we are. We have not been as successful as 
we would like, but we continue to press hard and recruit from 
all segments of the community.
    Senator Franken. Thank you.
    Many incidents have come to light recently of banks and 
debt collection agencies fraudulently signing affidavits. This 
has likely resulted in wrongful foreclosures and in consumers 
paying thousands of dollars in money that they do not owe. In 
fact, Lori Swanson, Minnesota's Attorney General, filed a suit 
just yesterday against a large debt collection company alleging 
that it improperly signed hundreds of affidavits without 
verifying information. This has reportedly resulted in 
situations like that of a woman from Eagan, Minnesota--a 
southern suburb of the Twin Cities--who was pursued for years--
a bill that she had already paid on time. She repeatedly sent 
her canceled check as proof of payment to the debt collector, 
but it took her a very long time to finally get the case 
dismissed by a court, and she has never been able to repair her 
credit.
    Do you think existing penalties for this type of fraud are 
strong enough? What more can we be doing to deter this kind of 
activity since it is so hard to make the victims whole after 
they have been defrauded?
    Mr. Mueller. First, I would have to give some thought as to 
what additional legislation is necessary, whether it be 
enhanced penalties in a particular area. I can tell you that we 
have a number of investigations going into this general area, 
and we have found that with the success of these 
investigations, we do have indictments and persons do go away 
for a substantial period of time. I am not familiar with this 
particular case, and so I cannot say whether those activities 
in that case are under investigation. I could not anyhow, but I 
can assure you we have a number of investigations.
    Senator Franken. Do not tell me anything I should not know.
    As you know, I have been very interested in how mortgage 
fraud has affected Minnesota. After our last oversight hearing, 
I submitted a question for the record asking you to explain the 
process by which the FBI chooses to prioritize resources for 
mortgage fraud cases. You said the FBI addresses the most 
prolific schemes that have the greatest impact on the 
communities where the fraud has occurred.
    I want to follow up on this because Minnesota has not just 
been affected by really big fraud cases. We have been hit by 
smaller frauds, too, where someone comes in and offers to 
refinance someone's home loan, gets all of the homeowner's 
information, then just steals the check when it arrives. Do you 
have the resources you need to investigate these smaller 
schemes and not just the highest-profile ones? And how are you 
working with state and local law enforcement to ensure that 
these outrageous cases of fraud are being prosecuted?
    Mr. Mueller. Well, what we endeavor to do is to work with 
State and local law enforcement in the form of either task 
forces or working groups, and we have currently 94 of these 
task forces and working groups around the country. We have 
almost 340 agents doing this. Probably we could use some more, 
but we do do a triage across not just the universe of cases in 
the Federal arena, but also with State and local law 
enforcement to see if we can get resolution of all the cases 
across the board. And so we will sit down with a working group 
and say, OK, how can this case be best addressed. Some will go 
to Federal court. Some will go to State court to be handled by 
district attorneys and the like. But our endeavor is to 
identify the universe and make certain that we get all cases 
that we can addressed in some way, whether it be at the Federal 
level, State or local, and that requires the coordination with 
State and local law enforcement.
    Senator Franken. Thank you. And, again, thank you for your 
service. I hope your next job is slightly less pressure, but I 
do want you to keep serving our country, and I know you will in 
whatever way you choose.
    Mr. Mueller. Thank you, sir.
    Senator Franken. Thank you.
    Chairman Leahy. Thank you very much, Senator Franken.
    Senator Kyl.
    Senator Kyl. Thank you very much.
    Director, I want to add my voice to those who have thanked 
you for your service. We appreciate it very much and obviously 
do wish you well. I would note, though, as in my case, your job 
is not quite done. I asked the Chairman if we might be calling 
you up one more time before you left. He said probably not, but 
I would not hold your breath yet.
    Mr. Mueller. I am with the Chairman.
    [Laughter.]
    Senator Kyl. Let me first just follow up on a question that 
Senator Franken asked. The FBI does rely on the cooperation of 
the Muslim community to investigate radicalization particularly 
of young Muslims in the community. Is that not correct?
    Mr. Mueller. True.
    Senator Kyl. And I gather it would not be helpful to your 
efforts if members of the Muslim community refused to even talk 
to FBI agents without having their lawyer present.
    Mr. Mueller. I would state at the outset everybody in the 
United States has a right to have a lawyer present, but what we 
would like and ask of these communities is that they encourage 
their persons to cooperate with us and provide us the 
information, the tripwires that will help prevent the next 
terrorist attack.
    Senator Kyl. So it is not particularly helpful if they are 
advised that they do not talk to you unless they have a lawyer 
present?
    Mr. Mueller. I am familiar with one of the placards that 
one entity had there, which across the board urged persons not 
to talk to the FBI. And that is not contributions we want from 
our citizens to stop crime, stop terrorist attacks.
    Senator Kyl. Any citizen, for that matter.
    Mr. Mueller. Any.
    Senator Kyl. Right. Let me ask you about--could you 
describe just for the record in about 20 seconds what your Team 
Telecom mission is?
    Mr. Mueller. Team Telecom.
    Senator Kyl. Well, as I understand it, you have stood up a 
mission which assists in the evaluation of cyber activity by 
foreign corporations, for example. Maybe I should set the 
stage. I was just trying to set the preliminary stage. You are 
familiar with the Chinese companies Huawei and ZTE?
    Mr. Mueller. Yes, sir.
    Senator Kyl. And there are a couple specific things that 
your Team Telecom has been advised. Maybe you have a different 
name for it.
    Mr. Mueller. We call it CFIUS. I understand the process 
whereby the Government looks at the purchase of companies by--
--
    Senator Kyl. Right, and the FBI has a specific group that 
assists in that.
    Mr. Mueller. We do. We call it CFIUS. Yes, we do.
    Senator Kyl. Okay. One of the things that has been reported 
is that our country's sixth largest cellular provider, U.S. 
Cellular, is contemplating having Huawei build out its 4g 
network. Now, given the fact that we were concerned enough 
about Huawei's potential contracting with AT&T and Sprint to 
the point that we intervened and both of those companies 
separated themselves from Huawei and did not move forward, what 
would your concerns be about such a contract with U.S. 
Cellular?
    Mr. Mueller. Well, this is something I am not certain we 
can address in open session. I can tell you the process is 
while we do not sit at the table with those who are in the 
CFIUS process, our recommendations or advice is often elicited, 
and we would do that in a classified setting.
    Senator Kyl. And the kinds of advice that the FBI would 
give would be based upon just hypothetically what kind of a 
concern?
    Mr. Mueller. Well, concerns that--speaking generally, not 
about one company----
    Senator Kyl. Just generally, yes.
    Mr. Mueller [continuing]. Or one particular process, but 
the concerns that through entities are operating with the 
backing of the Government that foreign governments may have 
access to classified communications to our intellectual 
property through proxies, and so the process, the CFIUS 
process, has been set up to assure that that possibility is 
examined, looked at, and a determination made as to whether or 
not a particular purchase of a company should go through.
    Senator Kyl. Right. One of the things that has occurred, at 
least we understand, that Huawei has partnered with the company 
Hibernia to help build and deploy a cable from New York to the 
U.K. that will transmit sensitive data including market 
information from the New York Stock Exchange. And I am curious 
whether or not your team CFIUS or Team Telecom has reviewed 
that partnership with Hibernia and the cable license involved 
with this cable landing and whether you could inform us about 
any considerations that you would have there.
    Mr. Mueller. At the outset, I am not familiar with the 
facts of that, but even if I were, I do believe it is the type 
of subject that would be addressed in a classified setting.
    Senator Kyl. Okay. Just so folks that might not be quite as 
aware of this would understand, a little bit of background. 
This firm Huawei has a background with the People's Liberation 
Army of China, is supported strongly by the Chinese Government, 
and at least in the past concerns have been raised about its 
involvement in the U.S. network, and that is the reason for the 
questions.
    Would you have a concern about FBI systems being integrated 
or having Huawei, for example, being integrated into FBI 
systems?
    Mr. Mueller. I cannot speak to a particular company. I can 
say that ourselves, the intelligence community, are always 
concerned about assuring the security of our systems and the 
persons that are working on our systems or providing the 
capabilities that support our systems.
    Senator Kyl. Would that also include even down to the local 
level? In other words, any network that might carry sensitive 
information or be connected with one that would carry sensitive 
information would potentially fall within the mission of the 
FBI taking a look at it. Is that correct?
    Mr. Mueller. It may well be that in those circumstances we 
would take a look at it. If you are talking about our systems, 
we would always be concerned about trap doors or back doors and 
ways into our systems. If there is a business purchase at some 
point, we may be asked to look at the impact of that purchase?
    Senator Kyl. Just generally speaking, is there anything 
that you would ask of us at this point? Or could I just ask you 
to perhaps think about that and supply for the record any 
recommendations or suggestions you would have about assistance 
that Congress could provide for you to do your part of this 
mission?
    Mr. Mueller. Yes, sir. Would be happy to.
    Senator Kyl. Great.
    [The information appears as a submission for the record.]
    Senator Kyl. And then just one last question. One of the 
things that has been on going with the FBI and the Department 
of Homeland Security has been the matter--I am going back to 
the terrorist issue--of lexicon, and there is one theory that 
says you do not call people jihadists or Islamists because that 
simply gives credibility to their ideological foundation for 
their action. The other school of thought says if we are going 
to defeat a terrorist enemy, we need to at least be able to 
call it by its true name, understanding its etiology, its 
motivation of the people, what makes it tick so that we can 
effectively deal with it.
    Where does the FBI come down in this matter of terminology?
    Mr. Mueller. Well, we call it as we see it. I understand 
that there is some discussion out there, but nobody has ever 
told us how we are supposed to describe terrorists or terrorist 
groups, and we try to give the most clear definition, but call 
it what it is.
    Senator Kyl. Would you agree that one accurate description 
of some of these groups like al Qaeda, for example, is 
Islamist?
    Mr. Mueller. Islamic extremists, absolutely.
    Senator Kyl. OK. Thank you very much.
    Mr. Mueller. Extremists. ``Extremists'' is an accurate 
definition.
    Senator Kyl. Just to be crystal clear, nobody is suggesting 
that the Muslim faith is responsible for all of this. But in 
the name of their view of their faith, a lot of folks--maybe 
not a lot, but a number of young people have been radicalized, 
and radicalized to extreme actions I guess is the reason for 
the extremist. But there is no denying the connection, in their 
mind at least, to their Islamist faith, I gather. Would you 
agree with that?
    Mr. Mueller. Agreed, yes.
    Senator Kyl. Thank you very much, Mr. Director.
    Chairman Leahy. Thank you, Senator Kyl.
    Senator Coons.
    Senator Coons. Thank you, Mr. Chairman.
    Director, thank you so much for your testimony today and 
for your service to our country and for your diligent 
stewardship of the FBI. I have a number of areas I would like 
to touch on.
    First, in my former role as a county executive, I had 
responsibility for a county police department, and hopefully we 
will be focusing some latter this summer on the Federal and 
local law enforcement interface and collaboration. The FBI is 
an enormous source of valuable intelligence, not just in the 
national security area, in the anti-terrorism area, but also 
just in routine local law enforcement--drug interdiction, 
violent crime, and so forth.
    Could you just comment on successes and areas of 
improvement for FBI intelligence sharing with local law 
enforcement and how you feel local law enforcement is doing 
nationally at moving toward intelligence-based policing?
    Mr. Mueller. Let me start with the information sharing. One 
of the great successes, I think, since September 11th is the 
growth of the Joint Terrorism Task Forces and that concept, and 
to the extent that we have been successful in cases, virtually 
all of them have been utilizing the combined resources of the 
FBI and other Federal agencies and State and local in the 
context of the Joint Terrorism Task Force.
    I am a great believer also in task forces across the board, 
whether it be mortgage fraud task forces or gang task forces, 
violent crime task forces, because it gives you the combined 
capabilities of the entities, but also gets everybody on the 
same page so those vehicles provide a sharing of intelligence.
    Second, I would say we are doing, I believe, a lot better 
job of informing generally State and local law enforcement of 
what is happening in the terrorism arena. We will all be, 
however, beat to the punch occasionally by CNN, and that is 
just a factor of life in this day and age. But right now we put 
out bulletins almost immediately after something becomes public 
with regard to a terrorist attack to all State and local law 
enforcement across the country.
    Fusion centers that are--I think there are 70-odd around 
the country now that also contribute to the sharing. On many of 
these, the majority of them, we have FBI personnel even though 
they are State entities that are participating. That 
contributes to the sharing as well.
    There will always be some tension between ourselves and 
others, particularly when the information that we are utilizing 
is classified because it may come from the CIA or NSA, and 
persons who do not get that information are often frustrated. 
So there will always be that tension, but I think we have made 
substantial progress, and that is one of the pluses, positive 
aspects of what has happened since September 11th.
    Senator Coons. And how do you address concerns about 
classified information access? What is your process or 
prioritization when you reach a tipping point and conclude that 
it is essential that local law enforcement have access to that 
information?
    Mr. Mueller. Well, any person who is assigned to a Joint 
Terrorism Task Force goes through a background check and gets a 
top-secret clearance. And so if you are State and local and you 
are on a task force, you have access to that which the agents 
sitting to your right and left have. Many police chiefs have 
also gotten clearances so that they can have access to--police 
chiefs or sheriffs, access to the information.
    But it has been our position throughout that if a person is 
responsible for the safety of a particular community, 
classification should not stand in the way of getting the 
information they need to protect their community. If there is a 
threat to a particular--to Wilmington, Delaware, and----
    Senator Coons. Thinking hypothetically.
    Mr. Mueller. Hypothetically. And the chief of police has 
not got a clearance but there is a potential threat, you will 
get the information on that. We will find a way to get it, 
because I firmly believe those persons who have the 
responsibility for security have the right to that information 
if there is an immediate threat.
    Senator Coons. That is very helpful. Thank you.
    One other area I have worked on in collaboration with our 
Attorney General is DNA testing. We have only one State lab, 
our Office of Medical Examiner, which, oddly, comes under our 
State Health and Human Services Department, is understaffed, 
overworked, has a significant backlog. This is a challenge in 
many different States staying on top of the developing 
technology. Now that everyone watches it on TV, every defense 
lawyer believes they are entitled to, you know, top-level DNA 
testing, and there are a significant number of convicted 
offender samples--thousands in our case--that have not been 
reviewed as well.
    One possible solution to this backlog that was suggested to 
us was to allow private labs to do some of the backlog testing, 
but there is an FBI standard--I believe it is Standard 17--that 
requires that there be a full--essentially a public lab double-
check for any work that is being done by a private lab before 
the FBI will accept the results. I just would be interested in 
whether you are doing anything to ensure that FBI regulations 
are not resulting in needless inefficiencies. Our Office of 
Medical Examiner identified that standard as one challenge that 
essentially made it not worth their time to engage with private 
labs to have them, at reduced cost and better speed, help them 
with their significant backlog.
    Mr. Mueller. Well, there is a quality control process, a 
technological review process that you are adverting to that is 
required that one go through before it is ingested into the 
data base. Over the last year this has been an issue. We know 
those who are pressing to avoid this, and it may be in certain 
circumstances a bottleneck.
    To the extent that it has been, we are trying to reduce 
that and put into place more efficient capabilities to assure 
that that quality control can be done without slowing the 
ingestion of the new samples into the data base. But most 
people agree that there needs to be a quality control before 
the samples do go in the data base. So what we are trying to do 
and will continue to do is make that process more efficient to 
remove the time lags and make certain that--and all of us want 
to get it in as soon as possible, make certain that is done as 
efficiently as possible.
    Senator Coons. Well, thank you. I appreciate your testimony 
about these questions.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you very much, Senator Coons.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Mr. Mueller. Good to see you, sir.
    Senator Blumenthal. I want to join in thanking you for your 
service over the years where I have had the privilege of 
working with you as Attorney General of the State of 
Connecticut. And I know that the Attorneys General of the 
United States appreciate your working so closely with them and 
really in a very close partnership, and I particularly want to 
thank you for training and attracting the great men and women 
of the FBI who serve us so well day in and day out. And on that 
note, I just want to come back to the questions you answered 
about your budget.
    The inability to fill those 1,100 slots in my view would be 
really a disservice to the FBI and severely disadvantage this 
great organization, and I hope you agree with me in that.
    Mr. Mueller. It would set us back. It is a setback, and we 
have been moving forward with the help of Congress and the 
Committee and the appropriators, and this would stall the 
progress that has been made.
    Senator Blumenthal. Thank you. You know, I want to commend 
the FBI for its focus on an area that I think is extremely 
important--anabolic steroids. Recently in Danbury there was a 
major set of arrests involving breaking a drug ring that was 
selling steroids to high school users in the Danbury area, 
selling 70 bottles each month of these steroids to so-called 
individual users. And I know that very often we focus on street 
drugs, and the DEA has a responsibility in this area. But I 
want to commend the FBI for its focus on the steroid problem, 
which sometimes receives too little attention or awareness. And 
I wonder if the FBI is planning additional efforts to combat 
the spread and use of steroids, particularly among young users, 
high school and college users around the country.
    Mr. Mueller. I would say this generally is not an area that 
we would, particularly in this time of budget constraints, 
spend a lot of effort on, particularly when the primary agency 
with the jurisdiction is DEA.
    Now, we have become involved in investigations with DEA 
when steroids are coming from outside the United States with 
the Customs and Border Patrol, and we will contribute and 
participate in those investigations when we can provide 
something unique to further that investigation.
    But beyond that, I would have to go back and see what we 
are doing and get back to you on that, but I cannot say that 
given the challenges that we have and the threats that we have 
that this would be as high a priority as all of us would like.
    Senator Blumenthal. Well, I know that you have enormous 
challenges, and some of them we have heard today. But I would 
be interested in your additional information and also increased 
participation and support for other agencies that may have a 
primary role in this area, because I do think that the spread 
of these steroids, indeed an epidemic of their use, and an 
acceptance of their legitimacy is one of the great threats to 
our young people today, and I appreciate your willingness to 
cooperate in that effort.
    Mr. Mueller. Thank you.
    Senator Blumenthal. On a subject that others have asked you 
about, the mortgage foreclosure issue, I have to confess that I 
am unhappy and frustrated with the most recent efforts by the 
administration to send a message in this area--the robo-
signers, which are a subject of ongoing investigation by the 
State Attorneys General, which I helped to initiate. So far we 
have seen virtually no major actions by the task force that the 
President has appointed. In the face of blatant fraud on the 
court involving the robo-signers, false affidavits, clearly in 
my view criminal violations that are a fraud on our justice 
system, and I wonder if you could respond, please.
    Mr. Mueller. Sure. I share that concern and belief that 
there is fraud out there, and I can tell you we have ongoing 
investigations.
    Senator Blumenthal. And I hope that we will see 
prosecutions soon. I do not want to put words in your mouth, 
but if you share my frustration, I hope that you also share my 
belief that we ought to have action soon.
    Mr. Mueller. I do not disagree with that.
    Senator Blumenthal. Thank you.
    On the issue of missing children--and you have covered it a 
little bit--as you may know, the FBI was very constructively 
involved in a recent highly publicized search in the New Haven 
area for a missing 13-year-old, Isabella Oleschuk, who 
fortunately was found after 3 days. She appeared--in fact, left 
her own home on her own initiative, so she was not actually 
abducted or taken. But as you know, this problem is pervasive 
around the country. In Connecticut alone, the National Center 
for Missing and Exploited Children, a great organization that 
does wonderful work, received 67 reports of missing children in 
Connecticut last year, and 19 are still missing. And I know 
that the FBI has extraordinarily important other tasks, but I 
wonder whether this has taken increased--has come to be seen as 
a subject of increased priority in the FBI.
    Mr. Mueller. I would say it has always been a priority. 
When a child is lost, every special agent in charge wants to 
work with State and local law enforcement to find that child, 
and we will participate in the investigation so long as there 
is a Federal basis. And generally that is the thought being the 
person may well have been taken, abducted across State lines. 
There are occasions where we have to withdraw from 
investigations where the child has been found, and yet there is 
some investigative work to be done, but we have lost the 
Federal jurisdictional basis for it.
    But I can tell you, when a child is lost, we as well as 
every other law enforcement entity around bring whatever we can 
to make certain that we find that child. We have experts--
actually we have expert teams that are set up specifically to 
go to and address that circumstance when a child is lost.
    Senator Blumenthal. I welcome that response, and I would 
note that it marks a departure from many years ago when missing 
children were thought to be exclusively a local or State issue, 
and particularly now that many missing children are likely to 
be taken across State lines either by parents or others, I 
think that is a very commendable approach.
    Mr. Mueller. I can tell you that while not all missing 
children find their way to my BlackBerry, many of them do and 
we monitor that all the way up to the top.
    Senator Blumenthal. Well, I thank you very much, and, 
again, thank you for your extraordinary service to this Nation, 
and I think since I am the last questioner, I may enable you to 
leave this hearing unscathed and unwounded.
    Thank you, Mr. Chairman.
    Mr. Mueller. Thank you. Thank you, sir.
    Chairman Leahy. Thank you, and my only concern is we have 
CALEA, the Communications Assistance Law Enforcement Act, which 
I helped draft back in the 1990's. We worked closely with the 
Bureau and everybody else because, as I recall, part of it I 
drafted in my hideaway office with others around. I hear 
concerns that it may go dark, and I just urge you and your 
office to work with me and others who do not want that to 
happen, to make sure that we can keep this going. May I have 
that assurance?
    Mr. Mueller. Yes, sir. Absolutely.
    Chairman Leahy. Thank you.
    Okay. Well, I thank you very much. I appreciate you being 
here. I appreciate Attorney General Blumenthal wrapping it up, 
and thank you.
    Mr. Mueller. Thank you, sir.
    [Whereupon, at 11:52 a.m., the Committee was adjourned.]
    [Submissions for the record follow.]
    [GRAPHIC] [TIFF OMITTED] 71557.001
    
    [GRAPHIC] [TIFF OMITTED] 71557.002
    
    [GRAPHIC] [TIFF OMITTED] 71557.003
    
    [GRAPHIC] [TIFF OMITTED] 71557.004
    
    [GRAPHIC] [TIFF OMITTED] 71557.005
    
    [GRAPHIC] [TIFF OMITTED] 71557.006
    
    [GRAPHIC] [TIFF OMITTED] 71557.007
    
    [GRAPHIC] [TIFF OMITTED] 71557.008
    
    [GRAPHIC] [TIFF OMITTED] 71557.009
    
    [GRAPHIC] [TIFF OMITTED] 71557.010
    
    [GRAPHIC] [TIFF OMITTED] 71557.011
    
    [GRAPHIC] [TIFF OMITTED] 71557.012
    
    [GRAPHIC] [TIFF OMITTED] 71557.013
    
    [GRAPHIC] [TIFF OMITTED] 71557.014
    
    [GRAPHIC] [TIFF OMITTED] 71557.015
    
    [GRAPHIC] [TIFF OMITTED] 71557.016
    
    [GRAPHIC] [TIFF OMITTED] 71557.017
    
    [GRAPHIC] [TIFF OMITTED] 71557.018
    
    [GRAPHIC] [TIFF OMITTED] 71557.019
    
    [GRAPHIC] [TIFF OMITTED] 71557.020
    
    [GRAPHIC] [TIFF OMITTED] 71557.021
    
    [GRAPHIC] [TIFF OMITTED] 71557.022
    
    [GRAPHIC] [TIFF OMITTED] 71557.023
    
    [GRAPHIC] [TIFF OMITTED] 71557.024
    
    [GRAPHIC] [TIFF OMITTED] 71557.025
    
    [GRAPHIC] [TIFF OMITTED] 71557.026
    
    [GRAPHIC] [TIFF OMITTED] 71557.027
    
    [GRAPHIC] [TIFF OMITTED] 71557.028
    
    [GRAPHIC] [TIFF OMITTED] 71557.029
    
    [GRAPHIC] [TIFF OMITTED] 71557.030
    
    [GRAPHIC] [TIFF OMITTED] 71557.031
    
    [GRAPHIC] [TIFF OMITTED] 71557.032
    
    [GRAPHIC] [TIFF OMITTED] 71557.033
    
    [GRAPHIC] [TIFF OMITTED] 71557.034
    
    [GRAPHIC] [TIFF OMITTED] 71557.035
    
    [GRAPHIC] [TIFF OMITTED] 71557.036
    
    [GRAPHIC] [TIFF OMITTED] 71557.037
    
    [GRAPHIC] [TIFF OMITTED] 71557.038
    
    [GRAPHIC] [TIFF OMITTED] 71557.039
    
    [GRAPHIC] [TIFF OMITTED] 71557.040
    
    [GRAPHIC] [TIFF OMITTED] 71557.041
    
    [GRAPHIC] [TIFF OMITTED] 71557.042
    
    [GRAPHIC] [TIFF OMITTED] 71557.043
    
    [GRAPHIC] [TIFF OMITTED] 71557.044
    
    [GRAPHIC] [TIFF OMITTED] 71557.045
    
    [GRAPHIC] [TIFF OMITTED] 71557.046
    
    [GRAPHIC] [TIFF OMITTED] 71557.047
    
    [GRAPHIC] [TIFF OMITTED] 71557.048
    
    [GRAPHIC] [TIFF OMITTED] 71557.049
    
    [GRAPHIC] [TIFF OMITTED] 71557.050
    
    [GRAPHIC] [TIFF OMITTED] 71557.051
    
    [GRAPHIC] [TIFF OMITTED] 71557.052
    
    [GRAPHIC] [TIFF OMITTED] 71557.053
    
    [GRAPHIC] [TIFF OMITTED] 71557.054
    
    [GRAPHIC] [TIFF OMITTED] 71557.055
    
    [GRAPHIC] [TIFF OMITTED] 71557.056
    
    [GRAPHIC] [TIFF OMITTED] 71557.057
    
    [GRAPHIC] [TIFF OMITTED] 71557.058
    
    [GRAPHIC] [TIFF OMITTED] 71557.059
    
    [GRAPHIC] [TIFF OMITTED] 71557.060
    
    [GRAPHIC] [TIFF OMITTED] 71557.061
    
    [GRAPHIC] [TIFF OMITTED] 71557.062
    
    [GRAPHIC] [TIFF OMITTED] 71557.063
    
    [GRAPHIC] [TIFF OMITTED] 71557.064
    
    [GRAPHIC] [TIFF OMITTED] 71557.065
    
    [GRAPHIC] [TIFF OMITTED] 71557.066
    
    [GRAPHIC] [TIFF OMITTED] 71557.067
    
    [GRAPHIC] [TIFF OMITTED] 71557.068
    
    [GRAPHIC] [TIFF OMITTED] 71557.069
    
    [GRAPHIC] [TIFF OMITTED] 71557.070
    
                                 <all>

</pre></body></html>
